V.

NO.

IN THE

Supreme Court of tfje Mntteb l£>tate£
OCTOBER TERM, 2020
£

MARTIN L. HARRELL,
Petitioner,
v.

UNITED STATES OF AMERICA,
Respondent.
r

:

On Petition for Writ of Certiorari
To the United States Court of Appeals
For the Eleventh Circuit

PETITION FOR WRIT OF CERTIORARI
*

Martin L. Harrell, Pro Se
Fed. Reg. No. 87948-020
FCC Yazoo City (LOW)
P.O. Box 5000
Yazoo City, MS 39194-5000

i
B

RECEIVED
OCT 2 9 2020
OFFICE OF THE CLERK
SUPREME COURT U.S

i

QUESTIONS PRESENTED FOR REVIEW

I.

Whether Evidence Not Presented as the Result of Prosecutorial
Misconduct Should Be Considered New Evidence under
McQuiggin?

II.

Whether a District Court May Summarily Deny for Lack of
Diligence a Motion to Reopen Based on New Evidence, Where
There Are Disputes of Material Fact as to Diligence?

v

V

f

i

PARTIES TO THE PROCEEDING
All parties appear in the caption of the case on the cover page.

ii

RELATED CASES
United States v. Martin L. Harrell, Case No. l:07-CR-45-01(HL), U.S.
District Court for the Middle District of Georgia. Judgment
entered August 29, 2006.
United States v. Martin L. Harrell, No. 06-14686, U.S. Court of
Appeals for the Eleventh Circuit. Judgment entered June 6,2007.
Martin L. Harrell v. United States, Case No. l:08-cv-90021(HL),
U.S. District Court for the Middle District of Georgia. §2255
Judgment entered September 21, 2012.
Martin L. Harrell v. United States, No. 12-15968, U.S. Court of
Appeals for the Eleventh Circuit. Judgment denying COA on
§2255 motion entered July 25, 2013.
i

Martin L. Harrell v. United States, Case No. l:08-cv-90021(HL),
U.S. District Court for the Middle District of Georgia. Rule 60(b)
Judgment entered February 21, 2020.
Martin L. Harrell v. United States, No. 20-11212, U.S. Court of
Appeals for the Eleventh Circuit. Judgment denying COA on
Rule 60(b)motion entered June 2, 2020.

4

iii

TABLE OF AUTHORITIES
Fages(s)

Cases
Amrine v. Boiversox,
238 F.3d 1023 (8th Cir. 2001)

33

Aragon-Llanos v. United States,
556 F. App'x 826 (11th Cir. 2014)

36

Aron v. United States,
291 F.3d 708 (11th Cir. 2002)

36

Brady v. Maryland,
373 U.S. 83 (1963).

6,10,16,18, 28, 22, 25

Buck v. Davis,
580 U.S.__ , (2017)

35

Cleveland v. Bradshaw,
693 F.3d 626'(6th Cir. 2012)

33

Fratta v. Davis,
889 F.3d 225' (5th Cir. 2018)

33

Gomez v. Jaimet,
350 F.3d 673: (7th Cir. 2003)

33

Gonzalez v. Crosby,
545 U.S. 524 (2005)

20, 26, 35, 36

V

IV

Griffin v. Johnson,
350 F.3d 956 (9th Cir. 2003)

33

Griffin v. Swim-Tech Corp.,
722 F.2d 677.(11th Cir. 1984)

29

Holland v. Florida,
560 U.S. 631 (2010)

35

Lemoge v. United States,
587 F.3d 1188 (9th Cir. 2009)

22, 24, 27

McQuiggin w Perkins,
569 U.S. 383 (2015)..

20, 25, 31, 32, 33, 35, 37

Napue v. Illinois,
360 U.S. 264 (1959)

22, 25, 28

Reeves v. Fayette, SCI,
897 F.3d 154 (3d Cir. 2018)

32, 33, 37

Riva v. Ficcoj.
803 F.3d 77 (1st Cir. 2015)

33

Rivas v. Fischer,
687 F.3d 514 (2d Cir. 2012)

33

Satterfield v. Dist. Att'y Phila.,
872 F.3d 152 (3d Cir. 2017) . .

32, 35

Schlup v. Delo,
513 U.S. 298 (2005)

31, 32, 33, 37
v

V

United States v. Montano,
398 F.3d 1276 (11th Cir. 2005)

20, 25

Statute(s)
4

Title 18, United States Code §371
Title 18, United States Code §844(i)

4,10

Title 18, United States Code §1341

4

Title 18, United States Code §1512(b)(l)

5

Title 18, United States Code §1512(b)(3)

5

Title 18, United States Code §1951

4,5

Title 18, United States Code §1952

4

Title 28, United States Code §1254(1)

2

Title 28, United States Code §2244

35

Title 28, United States Code §2255

passim

Rule(s)
Fed. R. Civ. P, 60(b)

passim

a
vi

34

Sup. Ct. R. 10(a)

2

Sup. Ct. R. 13

Vll

TABLE OF CONTENTS
Page
QUESTION PRESENTED FOR REVIEW

1

PARTIES TO THE PROCEEDING

11

RELATED CASES

111

TABLE OF AUTHORITIES

IV

TABLE OF CONTENTS

vm

7

OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL PROVISIONS & RULE INVOLVED

3

STATEMENT OF THE CASE

4

1.

The Trial & Plea Proceedings

4

2.

Brady Violations Related to the GBI File

6

3.

Brady Violations Related to the BATF File

10

4.

Sentencing & Direct Appeal

15

5.

Proceedings Under 28 U.S.C. §2255

15

vm

■h

6.

7.

The Instant Rule 60(b) Proceedings in
The District Court................................

19

The Application for COA to the Eleventh
Circuit & Motion for Reconsideration from
The Denial Thereof.......................................

24

REASONS FOR GRANTING THE PETITION
I.

II.

31

The Court Should Grant Certiorari to Decide
Whether Evidence Not Presented as the Result of
Prosecutorial Misconduct Should be Considered
New Evidence Under McQuiggin...........................

31

The Court Should Grant Certiorari to Decide
Whether a District Court May Summarily Deny
for Lack of Diligence a Motion to Reopen Based
on New Evidence, Where There are Disputes of
Material Fact as to Diligence................................

34

38

CONCLUSION
INDEX TO THE APPENDICES
APPENDIX A:

APPENDIX B:

June 2, 2020 Order of United States Court of
Appeals for the Eleventh Circuit denying motion
for Certificate of Appealability.............................

A1

February 21, 2020 Order of United States District
Court for the Middle District of Georgia denying
Motion for Relief from Judgment............. ...........

A4

IX

2

APPENDIX C:

APPENDIX D:

September 9, 2020 Order of United States Court of
Appeals for the Eleventh Circuit denying motion
for Reconsideration...................................................

A6

May 8, 2019 Order and Recommendation of the
United States Magistrate Judge for the Middle
District of Georgia that the Rule 60(b) Motion
Be Denied...................................................................

A7

x

OPINIONS BELOW
The Order of the United States Court of Appeals for the Eleventh Circuit
denying Petitioner's motion for certificate of appealability is unpublished and
may be found at USCA Case No. 20-11212; United States of America v. Martin
L. Harrell (June 2, 2020) (Appendix - Al).
The Order of the United States District Court for the Middle District of
Georgia denying Petitioner's motion for relief from judgment and denying
him a certificate of appealability is unpublished and may be found at USDC
Case No. l:07-cr-45 (February 21, 2020) (Appendix - A4).
The Order of the United States Court of Appeals for the Eleventh Circuit
denying reconsideration of the denial of Petitioner's motion for certificate of
appealability is unpublished and may be found at USCA Case No. 20-11212;
United States of America v. Martin L. Harrell (September 9, 2020) (Appendix A6).

;

1

JURISDICTION
The order denying the motion for reconsideration was issued on
September 9, 2020. The order denying Petitioner's motion for certificate of
appealability, signed by a judge of the Eleventh Circuit, was issued on June
2,2020. This petition is timely filed pursuant to Sup. Ct. R. 13 and this Court's
Order dated March 19, 2020, extending the deadline to file any petition for a
writ of certiorari due on or after the date of the order to 150 days from the
date of the lower court judgment, in light of the ongoing public health
concerns relating to COVID-19. This Court's jurisdiction rests on 28 U.S.C.
§1254(1).

2

CONSTITUTIONAL PROVISIONS AND RULE INVOLVED
The Sixth Amendment of the United States Constitution provides:
In all criminal prosecutions, the accused shall enjoy the right to a
speedy and public trial, by an impartial jury of the state and district
wherein the crime shall have been committed, which district shall have
been previously ascertained by law, and to be informed of the nature
and cause of the accusation; to be confronted with the witnesses against
him; to have compulsory process for obtaining witnesses in his favor,
and to have the assistance of counsel for his defense.
The Fifth Amendment of the United States Constitution provides in pertinent part:
No person shall be [] be deprived of life, liberty, or property, without
due process of law.
Federal Rule of Civil Procedure 60 provides, in pertinent part:
(b) GROUNDS FOR RELIEF FROM A FINAL JUDGMENT, ORDER, OR
PROCEEDING. On motion and just terms, the court may relieve a party
or its legal representative from a final judgment, order, or proceeding
for theTollowing reasons:
(6) any other reason that justifies relief.
(c) Timing and Effect of the Motion.
(1) Timing. A motion under Rule 60(b) must be made within a
reasonable time—and for reasons (1), (2), and (3) no more than a
year after the entry of the judgment or order or the date of the
proceeding.
3

STATEMENT OF THE CASE
1.

The Trial & Plea Proceedings

In 2005, Martin Harrell ("Harrell" or "Mr. Harrell"), with Dexter
Harrison and Charles L. Harrell ("Charles"), was indicted in a 13-count
superseding indictment. In the indictment, Harrell and Charles were jointly
charged with conspiring to interfere with interstate commerce by threats,
intimidation, and extortion, in violation of 18 U.S.C. § 1951(a)(1) (Count 1),
and interfering with interstate commerce by threats, intimidation, and
n

extortion, in violation of 18 U.S.C. § 1951(a)(1) (Count 2). Mr. Harrell was
separately charged with interstate travel in aid of racketeering, in violation of
18 U.S.C. § 1952(a) (Count 3). Mr. Harrell and Harrison were jointly charged
with: (1) conspiring to commit arson and mail fraud, in violation of 18 U.S.C.
§ 371, 18 U.S.C. § 844(i), and 18 U.S.C. § 1341 (Count 5); (2) mail fraud, in
violation of 18 U.S.C. § 1341 (Count 6); and (3) arson, in violation of 18 U.S.C.
§ 844(1), and 2 (Count 7). Petitioner Harrell was also separately charged in the
indictment with: (1) three counts of witness tampering, in violation of 18
■j

4

U.S.C. § 1512(b)(1) (Counts 8, 9, and 10); (2) an additional count of
interference with interstate commerce by threats, intimidation, and extortion,
in violation of 18 U.S.C. § 1951(a) (Count 11); and (3) making misleading
statements, in violation of 18 U.S.C. § 1512(b)(3) (Count 12). Finally, the
indictment also separately charged Charles with witness tampering, in
violation of 18 U.S.C. § 1512(b)(3) (Count 4), and charged Harrison with
making misleading statements, in violation of 18 U.S.C. § 1512(b)(3) (Count
13).
Thereafter, the court severed the counts in the indictment into three
3

separate trials according to their relevance to each other. Specifically, the court
ordered that Counts 4-10 and 12-13 would be tried first, and that later,
separate trials would be held on Counts 1 -3, and on Count 11.
At the first trial, Harrell was convicted under Counts 5,7,10, and 12, but
was acquitted of Counts 6,8, and 9. Subsequently, before any additional trial
was held, Mr. Harrell pled guilty to Count 1 in exchange for the dismissal of
Counts 2, 3, and 11.

5
*

2.

Brady Violations Related to the GBI File1

Early on, none of the Defendants were suspected of being involved in
the arson, and primary suspicion was on a family of grifters who were
members of the "English Travelers" operating out of the towns of Ackworth,
Dallas, and Hiram, Georgia.2 The Mullen Family was identified as members
i

of the "English Travelers" and Harry and Tanya Mullen were residing in the
>

motel at the time of the arson.3 Endorsements in the file indicate that it, along
f

with tapes, photographs, and physical evidence, was transmitted in its
i

entirety to the United States Attorney's Office prior to trial and at some
unknown time returned to the GBI minus some exhibits or evidence.4
c

The Brady violations stem from the government not turning over to any
■

During the investigation the individual investigative reports were
maintained by the Georgia Bureau of Investigation (GBI) in a file which has come to be
called (unofficially) "the GBI file."
2

BE #712-1, p. 1, Memorialization of conversation between SAP Murphy
and South Carolina SLED Senior Agent Joe Livingston, contained in GBI File and titled
Exhibit #65 in that file.
3

See DE #712-1, pp. 2-4, Pages 1-3 of Exhibit #2 from the GBI File.

4

See DE #712-1, p. 5, GBI Face Sheet from GBI File.
6

r
,C:

defendant individual documents contained in the file which were either
exculpatory for Defendants or inculpatory for the Mullen Family. Toward the
later days of the trial, Mr. Harrell figured out that the file must exist and
began looking for the file. He caused a Freedom of Information Act request
to be filed, but he was told the file was lost.5
Much later, Mr. Harrell's co-defendant learned of the file from
Petitioner, and employed a nationally recognized private detective, who, after
f

the trial and all appeals of all defendants, found the file. A partial copy (with
many of the exhibits in the index missing) was given to Petitioner by the
co-defendant's attorney.
Although the GBI File was replete with evidence which the prosecution
’!

was required to provide, it is sufficient to note the evidence indicating that
Mr. Harrell was unjustly exposed to conviction and a mandatory minimum
sentence based on a falsehood, which was KNOWN to the prosecution at the
time they argued for and successfully orchestrated this miscarriage of justice.
t.

Ste DE #623-l(sealed); DE #712-1, pp. 6-10, Affidavit of Alicia Shirah, with
attached request:.
■?

7

3

Specifically, the GBI file establishes that the prosecution knowingly solicited
perjured testimony from Harry Mullen during trial:
Q. And then, after you left them with your father, you
went to the hospital; is that correct?
A. Yes, ma'am.
Q. What hospital did you go to?
A. The one in Donalsonville. I don't know the name of
it.
Q. Yes, sir. Why did you go to the hospital?
A. I was real short of breath, and it was like a
pressure on my chest. I didn't know if I was having a
heart attack or what, you know, but, I mean, ended
up it was smoke inhalation is what it was.
Q. And from that smoke inhalation, do you still suffer
today?
[DE #418, p. 17].
The prosecution was aware that this testimony was false. The GBI File
contained SAP Murphy's interview of Dr. Swearingain, wherein Swearingain
described Mullen's examination on the night of the incident and the fact that

k

8

he was NOT suffering from smoke inhalation in any demonstrable or
medically verifiable fashion.6
On Thursday, January 17,2002, at approximately 2:40
p.m., SAP MIKE MURPHY and State Fire Marshall
Investigator RONNIE DOBBINS conducted an
interview with MR. DAVID SWEARINGAIN, M.D. at
His office in Donalsonville, Georgia. The interview
was in reference to the physicians' examination of
HARRY MULLEN at the hospital emergency room on
the date in question.
DR. SWEARINGAIN stated MULLEN had checked
into the emergency room with complaints of smoke
inhalation. He advised that MULLEN stated he had
driven his kids to his mother's house and began
experiencing tingling in his arm, as well as chest pain.
C

DR. SWEARINGAIN advised that MULLEN's EKG
was normal with no hypertension noted. He stated
that MULLEN was experiencing anxiety and fast
breathing. DR. SWEARINGAIN indicated that
MULLEN was not wheezing and his chest x-ray did
not indicate anything abnormal. He stated that
MULLEN's lungs were free of any problems. He
stated the blood gases were not remarkable other
than MULLEN experiencing anxiety and breathing
The prosecution also possessed the statement of Joy McLaughlin, the
Collections Manager of the Donalsonville Hospital who stated that Harry Mullen's
behavior on the night of the incident was consistent with the behavior of one who
anticipates a possible law suit. See DE #712-1, p. 13, Exhibit #51 from the GBI file.

9

fast.
DR. SWEARINGAIN advised that he admitted
MULLEN to the hospital overnight as a precautionary
measure. This concluded the interview with DR.
SWEARINGAIN.
See DE #712-1, p. 11-12, Exhibit #53 from GBI File.
This reality did not stop the prosecution from obtaining Mr. Harrell's
conviction and the imposition of a 7-year mandatory minimum sentence
based on Mullen's perjury.7
3.

Brady Violations Related to the BATF File

During AUSA Crane's opening statement he introduced the
>:

prosecution's theory of the case, a central pillar of which was that the fuel
:•

used by the Ramada arsonist was not widely available, but Mr. Harrell had
access to that fuel and indeed "every type of item recovered at the Ramada
was also found at Marty Harrell's house or barn.8" Crane coupled this

See DE #503, p. 16, n.3 ("No one was killed, but one guest, Harry Mullen,
suffered smoke inhalation."[referring to footnote 3 which reads]"The injury to Mullen
caused the mandatory minimum seven year provision to apply, 18 U.S.C. § 844(1).").
8

DE #417, p. 47.

10

if
c

o

statement with what we now know to be an outright falsehood, that despite
Mr. Harrell giving consent for law enforcement to collect samples from his
diesel fuel tanks/'the case cannot be resolved by comparing diesel samples.
Diesel is too similar, and based on the conditions, you can't match it up with
DNA or blood typing. That will not resolve the issue.9"
During the trial of this matter, the prosecution offered the expert
testimony of BATF chemist Allah Najam.10 According to Najam, while it may
u
be technically possible to compare red diesel fuel from different sources, this
is not a test which is done at his lab, and in this case, because the diesel was
mixed with gasoline, no such testing was possible.11 On re-direct AUSA Crane
drove this point home.
Q. Turning your attention back to the issue of what
happens when you mix gasoline and diesel from a
chemical composition point of view —
A. And you have a mixture of two ignitable liquids.

Id., p. 48.
10

DE #137; #420, pp. 13-42.
DE #420, pp. 27-29; 32-33; 35-36; 41-42.

11

Q. All right. And does its chemical composition
change when the two are mixed together?
A. Yes, sir. Because the chemical composition of
gasoline is different than the chemical composition of
diesel, so when you're mixing it together, you're
changing the composition.
Q. All right. Is there a machine or a device or a test
that if we pour red dye diesel and gasoline together in
a bucket, mix them up, that can then separate them
out?
DE #420, pp. 41-42.
This left the jury with the false impression that it was impossible to
exclude Mr. Harrell's diesel fuel tanks as the source for the fuel used by the
Ramada arsonist. To the contrary, after numerous FOIA requests and
ultimately a FOIA suit against the BATF resulted in the release of Najam's test
results,12 it appears that Mr. Harrell's tanks could be excluded as the source
}\

12

Spe Plaintiff's Consent to Dismissal, Docket Entry #7 in Rudisill v. U.S. Dep't of
Justice, BATF, Case #l:17-cv-1364-KBJ (D.D.C.)("In October 2017, roughly a year and a
half after making a proper written request for records under FOIA/PA, Mr. Rudisill
finally received the records to which he was statutorily entitled. Although the delay in
disclosure, and necessity of bringing this suit to compel production consistent with the
FOIA's mandate are troubling, there appears to be nothing further to be gained through
this litigation. - [footnote 1] - Mr. Rudisill filed this action without the benefit or
expense of counsel, so recovery of costs - potentially arguable as the suit appears to
is

12

j

of the fuel used by the Ramada arsonist.13 Specifically, review of the BATF
testing results and Najam's testimony resulted in the preparation of a Rule 26
expert report by Douglas Byron, which concludes that Mr. Harrell's diesel
tanks can be excluded as the source of the fuel used by the Ramada arsonist.14
5. Facts Considered:
Thirteen items submitted in the case, items 1-5 and
items 7-14, were reported as containing a mixture of
gasoline and a heavy petroleum distillate. Two of the
samples, items 20 and 21, collected from Mr. Harrell's
farm did not contain either gasoline or a heavy
petroleum distillate and could not have been the
source of the profiles seen in the fire debris data. This
information was discussed at trial. The ATF chemist
testified that the data generated in the case did not
allow for the exclusion of any source locations,
however, there was no mention of a comparison of
item 6 to items 25a and 25b. Item 6 was a fire debris
sample recovered from the hotel and items 25a and
25b originated from the Harrell farm.

have served as' the catalyst for disclosure - would be limited to the filing fee and other
negligible expanses - Mr. Rudisill therefore consents to dismissal of this case and does
not seek costs.").
13

DE #712-1, pip. 14-21, Rule 26 Expert Report of Douglas Byron, dated 6/11/2018;
DE #712-1, pp. 22-89, Excerpt of BATF Testing Results.
14

Id.

13

r

* * *

Items 6, 25a and 25b are all classified as heavy
petroleum distillates and were reported correctly.
Item 6, however, is missing naphthalene, a chemical
found in products refined from crude oil and seen in
both gasoline and traditional heavy petroleum
distillates such as diesel fuels. When analyzed using
a mass spectrometer this chemical produces a
dominant 128 ion. While missing in item 6,
naphthalene is present in samples 25a and 25b
Originating from the Harrell farm. This is important
to this case because it indicates the diesel fuel from
the Harrell farm may be excluded as the source of
diesel or heavy petroleum distillate identified in
debris recovered from the hotel. The absence of this
ion was noted by the ATT chemist during the original
analysis, however, Mr. Najam was not asked during
testimony about his notes or the missing 128 ion.
There is no known post manufacturing process
scientifically proven to account for the missing ion.
This indicates the lack of the 128 ion from item 6 is
due to a manufacturing process different than the
process used to manufacture the diesel samples
recovered from the Harrell farm.
6. Conclusions:
Considering the facts and observations made
dvailable, it is my professional opinion that the
diesel fuel (heavy petroleum distillate) present in
sample 6 is not from the same source as the samples
obtained from the Harrell farm (items 25a and 25b).
14

i

i'

DE #712-1, pp. 15-16.
4.

Sentencing & Direct Appeal

Mr. Harrell was sentenced to a total of 240 months on both the arson
and Hobbs Act convictions and was ordered to pay restitution in the amount
of $319,145.10.15 On August 29, 2006, Mr. Harrell filed an appeal, raising as
error the order for restitution,16 which was upheld by the Eleventh Circuit in
an Order filed July 10, 2007.17
;i

5.

Proceedings Under 28 U.S.C. §2255

On August 11, 2008, Mr. Harrell filed a pro se motion to vacate under
§2255, with supporting brief in this court.18 Mr. Harrell's motion to vacate
sought relief on the grounds that he had been deprived of the effective
assistance of counsel in the trial court and on direct appeal. The proceedings
on Mr. Harrell's motion to vacate were expansive and contentious, involving

15

DE #358.

16

DE #366.

17

DE #444.

18

DE #465.

15

the representation of Mr. Harrell by multiple attorneys, some of whom were
uncomfortable representing a petitioner with such strident views on how his
case should be litigated.
As relevant to this request for COA, the issues raised in the underlying
Rule 60 motion, and the specific defects in the proceeding addressed in both,
Mr. Harrell filed a pro se motion to amend on August 18,2011.19 That motion
described "Brady violations (GBI evidence), suborned perjury of witnesses
and agents during the . . . trial. . . [and] Henry Mullen and the hidden GBI
evidence.20" Mr. Harrell sought permission to amend his pending motion to
vacate to include:
Even though Petitioner at the 2009 hearing brought
dp the hidden GBI evidence, Petitioner did not have
any absolute proof that such evidence existed. The
government in fact has admitted Petitioner also
brought up the GBI evidence back on April 12, 2006,
on page 2 in Government's Objections To Petitioner's
Answer To The Courts April 14, 2011 Order.
;

Petitioner now has irrefutable GBI documentation
19

DE #562.

20

Id., pp. 2-3.

16

that shows this evidence in fact existed and was not
turned over intentionally. This evidence will show
Dennis Weaver (governments main witness) made
clandestine tapes of Marty and Julie Harrell and lied
about it during the trial. It is important to note GBI
Agent Mike Murphy was at the prosecution table
during the trial.
***

Contained also in the hidden GBI evidence are pages
of evidence showing Harry Mullen and his families
involvement in fraudulent activities. Mr. Mullen was
a suspect in the arson who had motive, opportunity
and was at the motel the night of the fire. Mr. Mullen
behaved suspiciously before and after the fire and as
such, became a suspect. This evidence would have
been very important at trial for the defense to offer an
alternate theory. In fact, there is much more
circumstantial evidence against Mr. Mullen than
Petitioner. The evidence was withheld to keep the
defense from being able to use it. Agent Walshingham
or Agent Murphy could once again authenticate this
evidence. This evidence would take minimal time to
offer and the probative value is high.
DE #562, pp. 3-4
On October 7,2011, the Honorable Thomas Q. Langstaff, United States
Magistrate Judge found that "[t]o the extent that the Petitioner seeks to add

17
£

new claims to his §2255 petition, the Court finds that these claims are
untimely. 21// This was based on the Magistrate Judge's findings that Mr.
Harrell had failed to establish that the proposed amended claims either
related back to the timely submitted claims or were independently timely.22
On March 30, 2012, Mr. Harrell's counsel filed a motion to amend with
supporting memorandum.23 As relevant to this application for COA, in that
memorandum, Mr. Harrell sought permission to amend his pending motion
to vacate to include a claim that:
The United States, in violation of the principles
established in Brady v. Maryland, 373 US 83 (1963)
failed to deliver exculpatory material, falsely denied
the existence of material specifically requested by
Petitioner, and failed and refused to deliver material
requested by Petitioner, to Petitioner's detriment at
trial and appeal. Petitioner seeks to add this claim on
the basis of 28 USC § 2255(f)(2), 28 USC § 2255(f)(4),
and equitable tolling.
DE # #609, p. 2.

21

DE #578, p.l.

22

Id., pp. 1-2.

23

DE #609.

18

On September 21, 2012, the Honorable Hugh Lawson, Senior United
States District Judge refused to consider Mr. Harrell's pro se motion to amend
and denied his counseled motion to amend on grounds that the motion was
untimely.24 Subsequently, Mr. Harrell sought COA which was denied.25
6.

The Instant Rule 60(b) Proceedings in the District Court

On August 23, 2018, Mr. Harrell filed the pro se motion for relief from
the Judgment denying his motion under 28 U.S.C. §2255, pursuant to Federal
Rule of Civil Procedure 60(b)(6), with supporting exhibits, which is the subject
of this petition. [DE# 712; #712-1]. Mr. Harrell's Rule 60 motion sought relief
based on the district court's failure to consider Mr. Harrell's amended §2255
claims of prosecutorial misconduct - based on then newly discovered
:

evidence that the prosecution had failed to turn over substantial exculpatory
evidence which they alone enjoyed access to - timely, based on his actual

24

DE #655, pp. 3-5 & n.l.

25

DE #667 & #672.

19

innocence, despite precedent - United States v. Montano26 - indicating that
actual innocence can overcome the habeas statute of limitations. Instead, the
district court denied Mr Harrell's pro se motion to amend27 and his subsequent
counseled motion to amend,28 both on grounds of untimeliness.29 Mr. Harrell
argued that these procedural errors constituted the type of defect in the
integrity of the §2255 proceeding which rises to the level of an "extraordinary
circumstance" under Rule 60(b)(6). See Gonzalez v. Crosby, 545 U.S. 524,532 nn.
4-5,125 S. Ct. 2641 (2005).
Mr. Harrell further argued that the district court's erroneous
untimeliness ruling, in tandem with the equities mandating relief, including
the manifest miscarriage of justice Mr. Harrell is currently suffering - as he

26

398 F.3d 1276,1284 (11th Cir. 2005) ("Actual innocence is not itself a
substantive claim,
but rather serves only to lift the procedural bar caused by Appellant's
l
failure timely to file his § 2255 motion."); See also McQuiggin v. Perkins, 569 U.S.
383 (2013) (holding that actual innocence can overcome the habeas statute of
limitations).
27

DE it562 & #578.

28

DE #609.

29

ZPE #578 & #655.
■!.

20

presents a strong showing of actual innocence, and indeed that prosecutorial
misconduct appears to have led to the conviction of an innocent - and Mr.
Harrell's reasonable diligence in seeking the withheld exculpatory evidence,
only to be consistently misled by the prosecution and delayed by the actions
of the law enforcement community, fundamental fairness and justice required
that the judgment denying Mr. Harrell's §2255 motion be set aside. [DE #712],
Additionally, Mr. Harrell noted that the lack of prejudice to the United States
also militated in favor of a grant of relief from the judgment denying Mr.
Harrell's §2255 motion and for reopening the proceedings upon the same. Id.
On May 8, 2019, the magistrate judge issued his Order &
Recommendation ("O & R"), that Mr. Harrell's Rule 60(b) motion be denied
because ''[t]he Court cannot find Petitioner's nearly six-year delay reasonable
under Rule 60(b). Petitioner provides no justification for his delay, and does
not raise any new facts that would require the Court to alter its earlier denial
of his motions to amend." [DE #716, p. 6]. Mr. Harrell filed timely objections
to the O & R, including:

21

Mr. Harrell respectfully objects to the O & R's reliance
on its finding that he "provides no justification for his
delay, and does not raise any new facts that would
require the Court to alter its earlier denial of his
motions to amend," - [DE #716, p. 6] - as a basis to
conclude that the "Court cannot find Petitioner's
nearly six-year delay reasonable under Rule 60(b)." Id.
Courts agree that "[w]hat constitutes 'reasonable time'
depends upon the facts of each case, taking into
consideration the interest in finality, the reason for
delay, the practical ability of the litigant to learn
earlier of the grounds relied upon, and prejudice to
the other parties." Lemoge v. United States, 587 F.3d
1188, 1196 (9th Cir. 2009).
This objection is based on the reality that Mr. Harrell:
1) provided a more than adequate explanation for the
delay - including the need to have the BATF sued for
evidence to support the underlying Napue and Brady
claims, and then have those records examined by a
renowned expert who concluded that Mr. Harrell's
diesel tanks can be excluded as the source of the fuel
used in the Ramada arson, raising a creditable claim
of actual innocence [DE # 712, p. 13, nn. 16-17, pp.
25-31; #712-1, pp. 14-89] and 2) showed that he was
suffering a substantial injustice, that the equities
favored granting relief, and that the relief sought
would not prejudice the prosecution. [DE #712, pp.
32]. Additionally, Mr. Harrell objects on grounds that
the conclusion is contrary to the public interest in: 1)
Correcting unjust convictions; 2) vindicating colorable
showings that actually innocent individuals have
22

i

been convicted as a result of prosecutorial
misconduct, including knowing Brady and Napue
violations, by prosecutors who remain in office and
appear to be engaged in an ongoing course of conduct
intended to cover up such misconduct, and learning
the truth of the offense for which Mr. Harrell was
wrongly convicted.
This portion of the O & R should be rejected, the
judgment denying Mr. Harrell's §2255 motion should
be set aside and proceedings upon the same reopened
with an evidentiary hearing promptly scheduled.
DE #718, pp. 3-5.
On February 21, 2020, the district court filed its Order [DE #727],
denying in all respects Mr. Harrell's then pending Motion for Relief from the
Judgment denying his motion under 28 U.S.C. §2255, under Federal Rule of
Civil Procedure 60(b)(6). This order also denied Mr. Harrell a certificate of
appealability. Id.
On March 27, 2020, Mr. Harrell timely filed his notice of appeal. [DE
#728],

23

7.

The Application for COA to the Eleventh Circuit and Motion
for Reconsideration from the Denial Thereof

Mr. Harrell sought COA from the Eleventh Circuit on the following
question:
Did the lower court err or alternatively abuse its
discretion by adopting, over Mr. Harrell's objection,
the R & R's finding that he "provides no justification
for his delay, and does not raise any new facts that
would require the Court to alter its earlier denial of
his motions to amend," - [DE #716, p. 6] - as a basis to
conclude that the "Court cannot find Petitioner's
nearly six-year delay reasonable under Rule 60(b),"
where: A) courts agree that "[w]hat constitutes
'reasonable time' depends upon the facts of each case,
taking into consideration the interest in finality, the
reason for delay, the practical ability of the litigant to
learn earlier of the grounds relied upon, and
prejudice to the other parties." Lemoge v. United
States, 587 F.3d 1188, 1196 (9th Cir. 2009); B) the
record demonstrated that Mr. Harrell: 1) provided a
more than adequate explanation for the delay including the need to have the BATF sued for
evidence to support the underlying Napue and Brady
claims, and then have those records examined by a
renowned expert who concluded that Mr. Harrell's
diesel tanks can be excluded as the source of the fuel
used in the Ramada arson, raising a creditable claim
of actual innocence [DE # 712, p. 13, nn. 16-17, pp.
25-31; #712-1, pp. 14-89] -; and 2) showed that he was
24

suffering a substantial injustice, that the equities
favored granting relief, and that the relief sought
would not prejudice the prosecution. [DE #712, pp.
32]; and C) the ruling is contrary to the public interest
in: 1) correcting unjust convictions; and 2) vindicating
colorable showings that actually innocent individuals
have been convicted as a result of prosecutorial
misconduct, including knowing Brady and Napue
violations, by prosecutors who remain in office and
appear to be engaged in an ongoing course of conduct
intended to cover up such misconduct, and learning
the truth of the offense for which Mr. Harrell was
wrongly convicted?
In his application for CO A, Mr. Harrell explained that his Rule 60(b) motion
challenged the district court's failure to consider his amended §2255 claims
of prosecutorial misconduct - based on then newly discovered evidence that
the prosecution had failed to turn over substantial exculpatory evidence
which they alone enjoyed access to - timely, based on his actual innocence,
despite precedent - United States v. Montano30 -

indicating that actual

i

innocence can overcome the habeas statute of limitations. Instead, Harrell

30

398 F.3d 1276,1284 (11th Cir. 2005) ("Actual innocence is not itself a
substantive claim, but rather serves only to lift the procedural bar caused by Appellant's
failure timely to file his § 2255 motion."); See also McQuiggin v. Perkins, 569 U.S. 383
(2013) (holding that actual innocence can overcome the habeas statute of limitations).
25

explained ,the district court denied his pro se motion to amend31 and his
subsequent counseled motion to amend,32 both on grounds of untimeliness.33
Mr. Harrell argued that these procedural errors constituted the type of defect
in the integrity of the §2255 proceeding which rose to the level of an
"extraordinary circumstance" under Rule 60(b)(6). See Gonzalez v. Crosby, 545
U.S. 524, 532 nn. 4-5,125 S. Ct. 2641 (2005).
Mr. Harrell further argued that the district court's erroneous
untimeliness ruling, in tandem with the equities mandating relief, including
the manifest miscarriage of justice Mr. Harrell is currently suffering - as he
presents a strong showing of actual innocence, and indeed that prosecutorial
misconduct appears to have led to the conviction of an innocent - and Mr.
Harrell's reasonable diligence in seeking the withheld exculpatory evidence,
only to be consistently misled by the prosecution and delayed by the actions
of the law enforcement community, fundamental fairness and justice require
r
31

DE #562 & #578.

32

DE #609.

33

DE #578 & #655.

26

that the judgment denying Mr. Harrell's §2255 motion be set aside. [DE #712].
Additionally, Mr. Harrell noted that the lack of prejudice to the United States
also militated in favor of a grant of relief from the judgment denying Mr.
Harrell's §2255 motion and for reopening the proceedings upon the same. Id.
Mr. Harrell further explained that the district court's denial adopted the
magistrate judge's recommendation that his Rule 60(b) motion be denied
because "the court cannot find Petitioner's nearly six-year delay reasonable
under Rule 60(b)." [DE #716, p. 6; DE # 727]. Mr. Harrell argued that this
decision is at least debatable as courts agree that ”[w]hat constitutes
'reasonable time' depends upon the facts of each case, taking into
consideration the interest in finality, the reason for delay, the practical ability
of the litigant to learn earlier of the grounds relied upon, and prejudice to the
other parties,"34 and the record established that Mr. Harrell: 1) provided a
more than adequate explanation for the delay - including the need to have the
BATF sued for evidence to support the underlying Napue and Brady claims,

Lemoge v. United States, 587 F.3d 1188, 1196 (9th Cir. 2009).

27

and then have those records examined by a renowned expert who concluded
that Mr. Harrell's diesel tanks can be excluded as the source of the fuel used
in the Ramada arson, raising a creditable claim of actual innocence [DE #712,
p. 13, nn. 16-17, pp. 25-31; #712-1, pp. 14-89]

and 2) showed that he was

suffering a substantial injustice, that the equities favored granting relief, and
that the relief sought would not prejudice the prosecution. [DE #712, pp. 32].
Additionally, Mr. Harrell argued that the conclusion was contrary to the
public interest in: 1) correcting unjust convictions; 2) vindicating colorable
showings that actually innocent individuals have been convicted as a result
of prosecutorial misconduct, including knowing Brady and Napue violations,
by prosecutors who remain in office and appear to be engaged in an ongoing
course of conduct intended to cover up such misconduct, and learning the
truth of the offenses for which Mr. Harrell was wrongly convicted. Finally,
Mr. Harrell argued that this issue obtains the required constitutional
dimension by reference to the issues raised and attempted to be raised in Mr.
Harrell's amended §2255 motion, as summarized in §I.D.5, supra.

28

The Eleventh Circuit denied Mr. Harrell's application for CO A, stating
in pertinent part:
Harrell filed his Rule 60(b)(6) motion almost six years
after the district court entered the judgment denying
his § 2255 motion, and he did not present any reason
for this delay. Id. Moreover, Harrell's Rule 60(b)(6)
motion did not present "exceptional circumstances"
that would justify relief from the district court's
earlier judgment, but instead sought to relitigate his
earlier motion to amend his § 2255 motion, which the
district court had denied as untimely. Griffin, 722 F.2d
at 680. Accordingly, Harrell's motion for a COA is
DENIED because he has not made the requisite
showing, and his IFP motion is DENIED AS MOOT.
App. A-3.
Mr. Harrell filed a timely motion for reconsideration arguing that the
language of the order demonstrated that the Circuit Judge who issued the
order had misapprehended that factual record and Mr. Harrell's showing of
"exceptional circumstances" and had apparently adopted the district court's
misconstruction of the record and that showing. Mr. Harrell argued that he
had established that prosecutorial misconduct - in suppressing the
exculpatory scientific evidence which demonstrated that, contrary to the
29

testimony offered by the prosecution at Mr. Harrell's trial, Mr. Harrell's diesel
fuel tanks could not have been the source of the fuel used in the arson which
Mr. Harrell was convicted of committing, See DE #712, p. 13, nn. 16-17, pp. 2531; #712-1, pp. 14-89 - was the reason for his six year delay in submitting the
motion for relief from judgment. He further argued that the erroneous nature
i'

of the lower court's initial refusal to hear Mr. Harrell's amended claim, his
truly compelling showing of actual innocence, and the reality that he is clearly
suffering a monumental miscarriage of justice, as established by Mr. Harrell
in his Rule 60(b) motion and supporting papers represent "exceptional
circumstances" warranting the relief requested, and the Eleventh Circuit
Judge's misapprehension of these realities warranted reconsideration.
On September 9, 2020, a two-judge panel denied reconsideration.

30

REASONS FOR GRANTING THE PETITION
I.

THE COURT SHOULD GRANT CERTIORARI TO DECIDE
WHETHER EVIDENCE NOT PRESENTED AS THE RESULT OF
PROSECUTORIAL MISCONDUCT SHOULD BE CONSIDERED
NEW EVIDENCE UNDER McQUIGGIN.
The lower courts here asserted that Mr. Harrell failed to "raise any new

facts that would require the Court to alter its earlier denial of his motions to
amend."35 This is simply irreconcilable with this Court's holdings in Schlup
and McQuiggin, in light of the quantity and quality of the exculpatory
scientific evidence which Mr. Harrell submitted in support of his motion for
relief from judgment. The only basis for the lower courts' cursory dismissal
of the new scientific evidence presented by Mr. Harrell is their mistaken view
that evidence which could have been presented earlier, but was withheld due
to prosecutorial misconduct, does not constitute "new evidence" under
McQuiggin. When the Eleventh Circuit adopted the district court's analysis
that Mr. Harrell had not presented any new evidence that ruling deepened
and hardened an existing circuit split.

35

DE #716, p. 6; adopted by DE #727; App. A-2.

31

In Reeves v. Fayette, SCI, 897 F.3d 154 (3d Cir. 2018), the Third Circuit
recognized that evidence which may have been technically available at the
time of trial, but was not presented due to a constitutional violation (in that
case ineffective assistance of counsel - in this case prosecutorial misconduct)
is "new evidence" under McQuiggin. Their rationale is consistent with this
Court's holdings, aligned with the best interests of society, acts to vindicate
fundamental fairness, and is instructive:
The approach we adopt is consistent with Schlup and
the rulings of many of our sister circuits. Moreover, it
recognizes that "the injustice that results from the
conviction of an innocent person has long been at the
core of our criminal justice system." Schlup, 513 U.S.
at 325, 115 S.Ct. 851. Indeed, "the conviction of an
innocent person [is] perhaps the most grievous
mistake our judicial system can commit," and thus,
the contours of the actual innocence gateway must be
determined with consideration for correcting "such
an affront to liberty." Satterfield v. Dist. Att'y Phila.,
872 F.3d 152,154 (3d Cir. 2017).
Reeves v. Fayette, SCI, 897 F.3d 154,164 (3d Cir. 2018),
as amended (July 25, 2018), cert, denied sub nom.
State Corr. Inst, at Fayette v. Reeves, 139 S. Ct. 2713,204
E. Ed. 2d 1123 (2019).

32

The decision below is irreconcilable with Reeves. But the split did not
begin when the Eleventh Circuit issued its order denying Mr. Harrell COA.
Rather, it has deepened and hardened ever since the lower courts began
considering innocence claims under Schlup and McQuiggin. See generally
Reeves, 897 F.3d at 161-62 & n.6. The following courts of appeals agree with
the Third Circuit that facts not developed due to constitutional violations
count as new: Gomez v. Jaimet, 350 F.3d 673, 689-90 (7th Cir. 2003); Griffin v.
Johnson, 350 F.3d 956, 963 (9th Cir. 2003). The Eighth Circuit agrees with the
Eleventh Circuit that evidence counts as "new" only if it was "not available
at trial." Amrine v. Bowersox, 238 F.3d 1023,1018 (8th Cir. 2001). Three courts
of appeals have suggested that newly presented evidence can count as new.
See Riva v. Ficco, 803 F.3d 77, 84 (1st Cir. 2015); Cleveland v. Bradshaw, 693 F.3d
626,633 (6th Cir. 2012); Rivas v. Fischer, 687 F.3d 514,543,546-47 (2d Cir. 2012).
The Fifth Circuit has not taken a clear position, see Fratta v. Davis, 889 F.3d
225, 232 (5th Cir. 2018), but has suggested that evidence is not "new" if it
could have been discovered by professionally reasonable counsel. Id. at 232

33

n.21.
Thus, there is a live, well-developed conflict among the circuits on this
important and recurring question, one that is appropriate for this Court's
certiorari review. Sup. Ct. R. 10(a). This Court should grant certiorari to
resolve the conflict.
II.

THE COURT SHOULD GRANT CERTIORARI TO DECIDE
WHETHER A DISTRICT COURT MAY SUMMARILY DENY FOR
LACK OF DILIGENCE A MOTION TO REOPEN BASED ON NEW
EVIDENCE, WHERE THERE ARE DISPUTES OF MATERIAL FACT
AS TO DILIGENCE.
Here, there were disputed issues of material fact as to whether Mr.

Harrell had been diligent in obtaining the exculpatory scientific evidence at
•i

the heart of his motion to reopen. Despite the existence of conflicting
evidence, the district court and the Eleventh Circuit decided the issue
adversely to Mr. Harrell on a cold record without holding a hearing, taking
evidence, or observing the demeanor of the witnesses. This Court should
i;

grant certiorari to resolve whether, when confronted by a claim of innocence,
a lower court may summarily resolve such factual disputes without taking

34
!•

evidence.
When ,a habeas judgment is rendered on procedural grounds, the
petitioner may seek to reopen the judgment on a showing of extraordinary
circumstances. Fed. R. Civ. P. 60(b)(6); Buck, 137 S. Ct. at 778; Gonzalez, 545 U.S.
at 535. New, reliable evidence of innocence can present such extraordinary
circumstances, Satterfield v. Dist. Att'y Philadelphia, 872 F.3d 152, 162-63 (3d
Cir. 2017), and also serves to support equitable tolling of any statute of
limitations. McQuiggin, 569 U.S. at 386. Under McQuiggin, any lack of
diligence on the petitioner's part is considered "as a factor in determining
whether actual innocence has been reliably shown." Id. at 387.
Diligence is a familiar concept in habeas proceedings. See, e.g., 28 U.S.C.
§ 2244(d)(1)(d); 28 U.S.C. § 2255(f)(4). This Court and the lower federal courts
have made clear that diligence means "reasonable diligence," not "maximum
feasible diligence." Holland v. Florida, 560 U.S. 631, 653 (2010) (citations and
quotation marks

omitted).

Diligence, like the other extraordinary

circumstances that can justify reopening a judgment and equitable tolling, is

35

an '“equitable, often fact intensive' inquiry." Id. at 654 (quoting Gonzalez, 545
U.S. at 540 (Stevens, J., dissenting)). Accordingly, lower courts have
previously held that when a petitioner has "alleged facts regarding his
diligence that would entitle him to relief," Aron v. United States, 291 F.3d 708,
715 (11th Cir. 2002), the district court abuses its discretion if it fails to hold an
evidentiary hearing. Id.; accord Aragon-Llanos v. United States, 556 F. App'x 826,
829-30 (11th Cir. 2014) (unpublished).
Here, however, the lower courts never paused to consider the facts in
any careful and considered fashion, much less hold a hearing with respect to
diligence. Instead, they reviewed what was essentially a cold record. They
found a lack of diligence without allowing for any development of the record.
This was a serious error. The lower courts did not engage in a "fact-intensive
inquiry," but in a rush to judgment, asserting that Mr. Harrell provide no
reason for his six year delay in submitting the motion to reopen. Inasmuch as
Mr. Harrell alleges that prosecutorial misconduct was the reason for the
delay, he should not be made to bear the consequences of the success of the

36

prosecution's perfidy. See Reeves v. Fayette SCI, 897 F.3d 154,164 (3d Cir. 2018)
(where a constitutional violation delays the discovery or presentation "to the
fact-finder [of] the very exculpatory evidence that demonstrates his actual
innocence, such evidence constitutes new evidence for purposes of the Schlup
actual innocence gateway.").
The record below presents dramatically conflicting allegations, and
inadequately founded assumptions, of material fact respecting diligence,
which the lower courts could not properly resolve without a hearing. To the
extent that there are legitimate doubts about the reliability of Mr. Harrell's
exculpatory scientific evidence, evidentiary development should be ordered,
including discovery and further expert review, so that Mr. Harrell's new
evidence can be corroborated or disproved.
McQuiggin makes clear that diligence is a relevant consideration when
a petitioner seeks to reopen judgment on a time-barred claim. Holland makes
clear that the inquiry into diligence is an equitable, fact-intensive inquiry. But
this Court has not addressed whether or in what circumstances factual

37

development of an innocence gateway claim is required. This Court should
grant certiorari to decide that issue.
CONCLUSION
This Honorable Court should grant the petition for writ of certiorari.
Respectfully submitted this 23rd day of September, 2020.

IHgyctiK'
<//<zaaaM
Martin L. Harrell, Pro Se
Fed. Reg. No. 87948-020
FCC Yazoo City (LOW)
P.O. Box 5000
Yazoo City, MS 39194-5000

38

i

